Audit of USAID/Egypt’s Training, Use and
Accountability of Cognizant Technical Officers

Audit Report No. 6-263-04-003-P
December 29, 2003




                    Cairo, Egypt
This page intentionally left blank.
December 29, 2003

MEMORANDUM

FOR:          Director, USAID/Egypt, Kenneth C. Ellis

FROM:         RIG/Cairo, Darryl T. Burris //Signed//

SUBJECT:      Audit of USAID/Egypt’s Training, Use and Accountability of
              Cognizant Technical Officers (Report No. 6-263-04-003-P)

This is our report on the subject audit. In finalizing this report, we considered
management comments on the draft report and have included those comments, in
their entirety, as Appendix II in this report.

This report has two recommendations. In response to the draft report,
USAID/Egypt indicated agreement with both recommendations by describing
actions taken or planned to address our concerns. Based on USAID/Egypt’s
comments to our draft report, we consider that final action has occurred on both
recommendations.

I appreciate the cooperation and courtesy that USAID/Egypt and its recipients
extended to my staff during the audit.




                                                                                   1
This page is intentionally left blank.




                                         2
Table of   Summary of Results                                                      5
Contents
           Background                                                              5

           Audit Objectives                                                        6

           Audit Findings                                                          6

                Did USAID/Egypt provide adequate training and guidance
                to its Cognizant Technical Officers to help ensure that they
                were aware of and capable of performing their responsibilities?    6

                     USAID/Egypt CTOs Did Not Complete All                         7
                     Offered Courses

                Did USAID/Egypt hold its Cognizant Technical Officers
                accountable for performing their responsibilities in
                accordance with USAID policies and regulations?                   11

                     USAID/Egypt Needs to Establish Timely                        11
                     Performance Expectations and Evaluations

           Management Comments and Our Evaluation                                 13

           Appendix I – Scope and Methodology                                     15

           Appendix II – Management Comments                                      17




                                                                                       3
This page is intentionally left blank.




                                         4
Summary of   Regional Inspector General/Cairo audited USAID/Egypt’s Training, Use and
Results      Accountability of Cognizant Technical Officers to determine if the Mission (1)
             provided adequate training and guidance to its Cognizant Technical Officers to
             help ensure that they were aware of and capable of performing their
             responsibilities, and (2) held its Cognizant Technical Officers accountable for
             performing their responsibilities in accordance with USAID policies and
             regulations. (See page 6.)

             USAID/Egypt had not provided enough training for its Cognizant Technical
             Officers (CTOs) to acquire the core competencies needed to perform the full
             range of tasks assigned to them. The Mission provided several opportunities for
             its CTOs to attend the training courses identified in the CTO certification program
             but, because the CTO certification program had changed from four courses to
             three courses to two courses without a defined equivalency for courses already
             taken, no CTO completed the program. (See page 6.)

             In regards to accountability, USAID/Egypt did not always hold its CTOs
             accountable for performing their responsibilities in accordance with USAID
             policies and regulations. To illustrate, the Mission did not always ensure that
             rating officials established timely performance expectations for most of its CTOs.
             Further, the Mission did not ensure that all rating officials evaluated the
             performance of individual CTOs at the end of their rating cycle. (See page 11.)



Background   USAID’s contracting and assistance officers are the key members of a successful
             Assistance 1 and Acquisition2 workforce. However, Cognizant Technical Officers
             (CTOs) also have a critical role.

             CTOs are members of Strategic Objective Teams who have been authorized, in
             writing, by the Contracting or Assistance Officer to act for that officer with
             respect to defined administrative actions and technical issues arising under a
             given award. Generally, the technical office responsible for the activity
             nominates an individual to serve as the CTO, and the Contracting or Assistance

             1
               Assistance (grant and cooperative agreement) is a legal instrument used where the principal
             purpose is the transfer of money, property, services or anything of value to the recipient in order to
             accomplish a public purpose of support or stimulation authorized by Federal statute and where
             substantial involvement by USAID is not anticipated.
             2
               Acquisition means the acquiring by contract with appropriated funds of supplies or services,
             including construction, by and for the use of the Federal Government through purchase or lease,
             whether the supplies or services are already in existence or must be created, developed,
             demonstrated, and evaluated.




                                                                                                                 5
                 Officer generally accepts the nomination. The term "CTO" is used by USAID in
                 lieu of the other federal terms such as "Contracting Officer’s Technical
                 Representative" or "Contracting Officer’s Representative" and denotes that CTOs
                 can be responsible for grants as well as contracts.

                 CTOs may perform duties such as drafting scopes of work for proposed awards,
                 developing independent government cost estimates, and handling a variety of
                 post-award administrative actions, such as monitoring performance and reviewing
                 vouchers. These responsibilities can be very complex and, as a result, CTOs
                 should have the necessary qualifications to perform them, and they should be held
                 accountable for performing the tasks assigned to them.

                 As of March 30, 2003, USAID/Egypt had 51 employees who were designated as
                 CTOs. According to information provided by the Mission’s procurement office,
                 these CTOs were responsible for managing 74 contracts, grants, cooperative
                 agreements, and personal service contracts for an estimated amount of $1.02
                 billion.



Audit            This audit represents one of a worldwide series of audits included in the Office of
Objectives       Inspector General’s multi- year strategy for auditing USAID’s procurement
                 activities. The Regional Inspector General in Cairo performed the audit to answer
                 the following questions:
                    •   Did USAID/Egypt provide adequate training and guidance to its
                        Cognizant Technical Officers to help ensure that they were aware of and
                        capable of performing their responsibilities?

                    •   Did USAID/Egypt hold its Cognizant Technical Officers accountable for
                        performing their responsibilities in accordance with USAID policies and
                        regulations?
                 Appendix I contains a discussion of the audit’s scope and methodology.



Audit Findings   Did USAID/Egypt provide adequate training and guidance to its Cognizant
                 Technical Officers to help ensure that they were aware of and capable of
                 performing their responsibilities?

                 Although USAID/Egypt had provided several opportunities for CTOs to attend
                 training, the Mission had not provided enough training for its CTOs to acquire the
                 core competencies needed to perform the full range of tasks assigned to them.

                 USAID/Egypt had provided several opportunities to its Cognizant Technical
                 Officers to attend the training courses identified in the CTO certification program,



                                                                                                   6
which included courses needed to acquire core CTO competencies or to
understand and perform the full range of tasks assigned to CTOs.

Initially, the Certification Program consisted of four courses, including
Acquisition and Assistance Overview, Acquisition Management, Assistance
Management, and Pre-Award Responsibilities. As shown below, USAID/Egypt
offered each of these courses.

     1. Acquisition and Assistance Overview: USAID/Egypt provided eight
        opportunities for CTOs to attend this course since fiscal year 2000 when
        the course was first introduced by the Agency. These opportunities
        included three courses offered in the area (i.e. Tel Aviv, June
        2000; Amman, August 2001; and Nairobi, July 2002). USAID/Egypt
        also hosted three regional courses in Cairo-two in October 2000 and one
        in February 2002. Moreover, USAID/Egypt paid for two additional
        courses of the Acquisition and Assistance Overview, which were
        conducted in April 2001.
     2. Acquisition Management: USAID/Egypt hosted two regional courses
        in January 2002 and May 2002.

     3. Assistance Management for CTOs: USAID/Egypt hosted one regional
        course in March 2002.

     4. Pre-Award Responsibilities for CTOs: USAID/Egypt hosted one
        regional course in February 2002 and allowed employees the
        opportunity to participate in the regional course offered in Nairobi,
        Kenya in July 2002.

Although USAID/Egypt had provided these opportunities for its CTOs to attend
the training courses identified in the CTO Certification Program, not all CTOs
attended all courses offered. The following section discusses this issue.

USAID/Egypt CTOs Did Not
Complete All Offered Courses

Even though USAID/Egypt provided opportunities to its CTOs to attend the
training courses identified in the CTO Certification Program, no CTOs completed
all the courses offered. This occurred because USAID Bureau for Management’s
Learning Support Division had never issued any guidance as to the length of time
CTOs have to complete all courses. Additionally, most of the Mission’ s 51 CTOs
reported that they needed training in specific competencies needed to perform
their duties. CTOs must have the requisite competencies if they are expected to
perform efficiently.

The Office of Federal Procurement Policy, Policy Letter No. 97-01, dated
September 12, 1997, requires agencies to: (1) identify and publish model career


                                                                              7
paths; (2) establish education, core training, and experience requirements for their
acquisition workforce; and (3) develop mandatory education, training and
experience requirements. According to this Federal office, the “acquisition
workforce” includes contracting and purchasing officers, contracting officer
representatives, and contracting officer technical representatives; and “core
competencies” are those in the Federal Acquisition Institute’s Workbook.

USAID's Automated Directive System 202.3.1.2 acknowledges the Office of
Federal Procurement Policy’s training requirements and discusses how USAID
officials should comply with them. However, it also recognizes that there may be
times when it is necessary to nominate an individual to become a CTO who does
not have the mandatory training required by the Office of Federal Procurement
Policy. In these cases, the operating unit should develop a written plan that
allows the individual to receive the necessary training as quickly as possible in
order to obtain these competencies and subsequent certification.

USAID has developed a CTO Certification Program designed to provide CTOs the
basic knowledge and skills they need to effectively administer contracts and
assistance instruments.

Overall, none of USAID/Egypt’s CTOs had completed all 4 certification courses:
4 CTOs completed 3 of the 4 CTO courses; 15 CTOs completed 2 courses; 19
CTOs completed 1 course; and 10 CTOs had not taken any of the 4 courses,
however, these 10 CTOs had attended other training programs that preceded the
new certification program.

In regards to the courses attended:

   •   Thirty-six CTOs (75 percent) and five CTO Supervisors (50 percent)
       attended the Acquisition and Assistance overview course.

   •   Fifteen CTOs (31 percent) and two CTO Supervisors (20 percent) attended
       the Acquisition Management course.

   •   Six CTOs (13 percent) attended the Assistance Management course.

   •   Four CTOs (8 percent) and two CTO Supervisors (20 percent) attended
       the Pre-Award Responsibilities course.




                                                                                  8
      Table 1 below illustrates the percentage of CTOs who had completed each of the
      four training courses.
      Table 1. CTO Training Attendance from October 1999 to March 2003
        80%
                 Pictorial table showing CTO training attendance from
        70%
                 Oct 99 thru Mar03. The graph shows 75 percent of CTOs
                 attended A&A overview course, 31 % attended acquisition
                 management course, 13 % attended the assistance mgt
        60%
                 course and 8% attended the preaward responsibility course.
                                75%
        50%



Percent 40%
Attending
                                                      31%
        30%




        20%


                                                                                 13%                 8%
        10%




         0%
              Course 1: Acquisition and   Course 2: Acquisition       Course 3: Assistance   Course 4: Pre-Award
                Assistance Overview          Management                  Management             Responsibility
                                                             Course Title

      One Mission official explained that CTOs had not taken all of the certification
      courses because the course structure had changed over a two-year period, going
      from four courses to three courses. The entire series of three courses was
      scheduled to be conducted in Cairo during March 2003, but was cancelled by
      USAID Bureau for Management’s Learning Support Division. Currently, the
      program consists of two five-day courses without a defined equivalency for
      courses already taken. In addition, the official said that the Mission’s CTOs had
      not completed the program because the USAID Bureau for Management’s
      Learning Support Division had never issued any guidance as to the length of time
      CTOs have to complete all courses. Furthermore, neither the Mission’s CTOs nor
      the Training Office knew if CTOs who managed only acquisition instruments
      needed to take the assistance course.

      Most CTOs who responded to a questionnaire reported that they needed
      additional training in the required competencies established by USAID.
      Additionally, CTO Supervisors, CTOs, as well as Contracting Officers and
      Assistance Officers reported that CTOs could benefit from more training in the
      following areas: project management, conflict management, negotiation,
      supervision, and advanced writing skills. These additional training needs shown
      in table 2 (on page 10) were reflected in the Mission’s training plan for fiscal year
      2003.



                                                                                                                   9
Table 2. Number and Percentage of CTOs Who Said They Needed Additional
Training to Demonstrate Selected Competencies Needed to Administer
Contracts, Grants, or Cooperative agreements

                                                                                 CTOs Who Said
                                                                                  They Needed
                                                                                 More Training
                                                                   No. of CTOs
                                                                   Responding     No.     %
             Required Competencies for Contracts
 Knowledge of contracting law and regulations                          49          40     82
 Knowledge of contracting ethics including conflicts of interest
 and security of information                                           50          25     50
 Ability to develop contract requirements, conduct market
 research, and prepare requirements documents and statements
 of work                                                               50          40     80
 Ability to request/assess bid and proposals                           50          41     82
 Ability to conduct price and cost determinations                      50          40     80
 Ability to monitor contractor performance                             50          33     66
 Ability to process contracting actions                                50          31     62
 Knowledge of documentation requirements including tracking
 orders, deliverables, timesheets, and other record keeping            50          31     62
 Ability to close-out, terminate contract appeals and protests         50          35     70
 Ability to administratively approve vouchers for payment              50          22     44
               Required Competencies for Grants
                  and Cooperative Agreements
 Knowledge of elements of an award                                     43          31     72
 Knowledge of USAID's policy on competition                            43          32     74
 Knowledge of types of assistance instruments                          43          30     70

 Knowledge of USAID Source Origin/Nationality Requirements             42          29     69
 Ability to process closeout procedures                                43          31     72
 Ability to monitor and evaluate recipients' performance               42          27     64
 Ability to review and analyze performance and financial reports
 and verify timely delivery                                            43          29     67


CTOs must have the requisite competencies if they are expected to perform
efficiently but, due to the lack of training, the USAID/Egypt’s CTOs may not be
fully capable of performing their duties properly.

      Recommendation No. 1: We recommend that the Director,
      USAID/Egypt, in coordination with the USAID Bureau for
      Management’s Learning Support Division, (a) assess course
      comparability and determine the additional courses required for
      the Mission’s Cognizant Technical Officers to complete the
      certification program, and (b) arrange for Cognizant Technical
      Officers to attend the necessary training.




                                                                                                 10
Did USAID/Egypt hold its Cognizant Technical Officers accountable for
performing their responsibilities in accordance with USAID policies and
regulations?

USAID/Egypt did not always hold its CTOs accountable for performing their
responsibilities in accordance with USAID policies and regulations. To illustrate,
the Mission did not always ensure that rating officials established timely
performance expectations for several of its CTOs. Further, the Mission did not
ensure that all rating officials evaluated the performance of individual CTOs at
the end of their rating cycle. The following section discusses this issue.

USAID/Egypt Needs to Establish Timely
Performance Expectations and Evaluations

USAID/Egypt did not always hold its CTOs accountable for performing their
responsibilities in accordance with USAID policies and regulations. This
happened because CTO supervisors did not adhere to Federal and USAID policies
which require timely establishment of work plans and timely evaluation of
employee performance. As a result, CTOs may not obtain a realistic and
equitable performance evaluation, and may not be held accountable for not
performing their duties properly.

Federal and USAID policies require the performance of USAID employees to be
evaluated.

   •   The Foreign Affairs Handbook, 3 FAH-2-135 (B) (2), requires rating
       officers to explain to each employee the duties of the position and
       requirements for satisfactory performance at the beginning of the rating
       period. This Handbook also requires that work plans and performance
       evaluations for Foreign Service National employees be reported on the
       Work Plan and Performance Evaluation Report for Foreign Service
       National Personnel (Form JF-50.)
   •   USAID/Egypt’s policy for developing work plans for Foreign Service
       Nationals requires work plans for all incumbents of positions at the FSN-9
       level and above. The policy further requires the employee and the rating
       official to discuss work requirements and specific goals and objectives at
       the beginning of the rating cycle, and formally record them on the JF-50
       Form within 30 days from the beginning of the rating period. The rated
       employee, rating officer, and reviewing official must sign and date the
       form and send the original to the Mission’s personnel office as soon as it is
       completed.
   •   USAID/Egypt’s Mission Order 14-05 says that the performance of all
       American Personal Service Contractor employees shall be evaluated on
       Form USAID/C/53/94 during the twelfth month of each year of service.
       General, continuing responsibilities should be listed in section A of this
       form. Any specific objective to be accomplished during the succeeding 11


                                                                                 11
       month period should be added to the Contractor Performance Appraisal in
       Section B. The Mission Order further says that supervisors shall meet with
       contractor employees during the first 30 days of the contractor's initial
       work cycle to discuss the employee's scope of work as outlined in his/her
       contract.

Contrary to the criteria above, USAID/Egypt did not always hold its CTOs
accountable for performing their responsibilities in accordance with USAID
policies and regulations.

As of March 30, 2003, USAID/Egypt had 51 active designated CTOs. This
universe included three CTOs who managed personal service contracts, which
were not considered in the sample selection. We selected a statistical sample of
33 CTOs from the remaining 48 CTOs in the universe. The CTO sample included
4 U.S. Direct Hires; 5 U.S. Personal Service Contractors; 1 Technical Advisor in
AIDS, Child Survival; and 23 Foreign Service Nationals. While all 33 CTOs had
position descriptions or contracts that clearly delineated their general duties and
responsibilities, 13 (39 percent) did not have work plans established at the
beginning of their rating cycle.

Additionally, USAID/Egypt did not ensure that all rating officials evaluated the
performance of individual CTOs at the end of their rating cycle. For example,
performance evaluation reports were overdue by more than three months for 5
Foreign Service Nationals and 2 Personal Service Contractors, or 21 percent of
the 33 selected CTOs.

A Mission official said that some supervisors orally discuss work objectives with
the rated employee at the beginning of the rating cycle but fail to record them on
the JF-50 form until the end of the cycle when the evaluations are due. The
official said that other supervisors do not always respond timely to the Human
Resources Division’s request for work plans.

Without timely prepared work plans and performance reports, employees may not
obtain a realistic and equitable performance evaluation. In addition, the y may not
be held accountable for not performing their duties.

       Recommendation No. 2: We recommend that the Director,
       USAID/Egypt require adherence to its policies that call for
       rating officials to (a) establish, discuss, and formally record
       employee work plans at the beginning of the rating cycle; and
       (b) evaluate the performance of individual Cognizant
       Technical Officers at the end of their rating cycle.




                                                                                12
Management       In response to our draft report, USAID/Egypt provided written comments that
Comments and     described the actions taken or planned to address our recommendations. The
                 Mission’s written comments are included in their entirety as Appendix II.
Our Evaluation
                 USAID/Egypt has taken the following actions:

                 In regards to Recommendation No. 1, the Mission said that names of all
                 USAID/Egypt CTOs were entered in the USAID/Washington database as well as
                 the certification courses completed to date. USAID Bureau for Management’s
                 Learning Support Division will verify this data based on which certification will be
                 issued to the CTOs who comp leted the required courses. The Mission also said
                 that the training office has sent a reminder to all USAID/Egypt’s CTOs advising on
                 completed courses and what remains to be taken to become certified. In addition,
                 the Mission said that CTOs were notified to enroll themselves in the planned
                 certification courses scheduled to take place in Cairo during the period of November
                 30 through December 15, 2003, or in the U.S. or at any other available site. Based
                 on the Mission’s comments, we consider that final action on Recommendation No. 1
                 has occurred.

                 In regards to Recommendation No. 2, the Mission said that the Office of
                 Procurement will update the CTO list on a quarterly basis. The Mission also said
                 that the Human Resource Division for Foreign Service National (FSN) employees
                 will ensure that CTO responsibilities are documented on annual FSN work plans and
                 performance evaluations. In addition, the Mission said that the Management Office
                 will report to the Front Office the names of rating officials who become more than
                 two months late in submitting Work Plans and/or Performance Evaluation Reports
                 for the FSN CTOs they supervise for action. Based on the Mission’s comments, we
                 consider that final action on Recommendation No. 2 has occurred.




                                                                                                  13
This page is intentionally left blank.




                                         14
                                                                                    Appendix I




Scope and     Scope
Methodology
              Regional Inspector General/Cairo conducted the audit in accordance with generally
              accepted government auditing standards. The audit was designed to answer two
              questions:
                 •    Did USAID/Egypt provide adequate training and guidance to its Cognizant
                      Technical Officers to help ensure that they were aware of and capable of
                      performing their responsibilities?
                 •    Did USAID/Egypt hold its Cognizant Technical Officers accountable for
                      performing their responsibilities in accordance with USAID policies and
                      regulations?
              In planning and performing the audit, we obtained an understanding of
              management controls related to (1) the identification of the tasks to be performed
              by Cognizant Technical Officers, (2) the identification of training needed by
              Cognizant Technical Officers, (3) the provision of training to Cognizant Technical
              Officers, (4) the establishment of work objectives and performance plans for
              Cognizant Technical Officers, and (5) the evaluation of Cognizant Technical
              Officer performance. We also collected information from Cognizant Technical
              Officers, contracting staff, regional legal advisor staff, and recipients.
              We conducted the audit at USAID/Egypt in Cairo.         The audit fieldwork was
              conducted from March 18 through June 12, 2003.

              Methodology

              To answer both audit objectives, we used a questionnaire designed by the
              Performance Audit Division of the Office of Inspector General to collect
              information from USAID/Egypt’s CTOs. Through the questionnaire, we obtained
              information on the CTOs’ background, training, and experience performing CTO
              tasks.

              As of March 30, 2003, USAID/Egypt had 51 active designated CTOs. The
              universe included three CTOs who managed personal service contracts, which
              were not considered in the sample selection. The questionnaire was distributed to
              all 51 CTOs, and everyone responded. We did not develop materiality thresholds
              for the audit objectives.

              The audit team selected a statistical sample of 33 CTOs from the CTO universe.
              The sample included 4 U.S. Direct Hires; 5 U.S. Personal Service Contractors; 1
              Technical Advisor in AIDS, Child Survival and Population; and 23 Foreign
              Service Nationals.

              In addition to distributing the questionnaire and analyzing the responses, we
              interviewed the CTOs selected in our sample and the Mission’s 10 direct CTO


                                                                                             15
                                                                       Appendix I


supervisors. We also interviewed the Mission’s contracting officers as well as 13
recipients selected judgmentally.

To answer the second objective, we reviewed position descriptions, work
objectives, work plans, and performance evaluation reports for the 33 CTOs
selected in our sample. We reviewed these documents to determine if position
descriptions, work objectives, and work plans adequately delineated the CTOs
general dut ies and responsibilities. We also reviewed the status of work plans and
performance evaluation reports to ensure that these documents were submitted
timely to USAID/Egypt Office of Human Resources.




                                                                                16
                                                                                        Appendix II



Management
Comments

                                                                November 13, 2003
Memorandum

To:           Darryl T. Burris, RIG/Cairo

From: Mary C. Ott, D/DIR //Signed//

Subject:      Audit of USAID/Egypt’s Training, Use and Accountability of Cognizant Technical
              Officers (Draft Report)


The Mission has taken the following actions to respond to the subject audit report
Recommendations No. 1 and 2:

Recommendation No. 1:

We recommend that the Director, USAID/Egypt, in coordination with the USAID Bureau
for Management’s Learning Support Division, (a) assess course comparability and
determi ne the additional courses required for the Mission’s Cognizant Technical Officers to
complete the certification program, and (b) arrange for Cognizant Technical Officers to
attend the necessary training.

Response to Recommendation No. 1:

o In October 2003, data entry was reflected in
  HR/LS/Washington’s Cognizant Technical Officers (CTO) database for all USAID/Egypt’s CTOs,
  using the list provided by USAID/Egypt’s Procurement Office dated March 30, 2003. Names of all
  USAID/Egypt CTOs were entered in the USAID/Washington database as well as the certification
  courses completed to date, (Attachment a). HR/LS/Washington will verify this data based on which
  certification will be issued for the CTOs who have completed the required courses.

o USAID/Egypt’s CTOs needing the certification courses were notified to enroll themselves in the
  planned certification courses scheduled to take place in Cairo during the period of November 30
  through     December 15, 2003, (Attachment b). A Mission-wide announcement went out on
  September 9, 2003 for these courses among other Agency regional training courses offered in Cairo,
  (Attachment c). Dates and description of these courses are available on USAID/Cairo’s Intranet
  under Training/Classes category. CTOs can also enroll the mselves in these required courses offered
  by HR/LS/Washington in the U.S. or at any other available site. The Mission’s CTOs have priority
  for attending courses organized in Cairo.




                                                                                                  17
    o The Mission training office has sent a reminder to all USAID/Egypt’s CTOs included on the March
      30, 2003 list of the Cairo course offerings in November/December 2003. The reminder advised each
      CTO which courses he/she has completed and what remains to be taken to become certified.

    Recommendation No. 2:

    We recommend that the Director, USAID/Egypt require adherence to its policies that call
    for rating officials to (a) establish, discuss, and formally record employee work plans at the
    beginning of the rating cycle; and (b) evaluate the performance of individual Cognizant
    Technical Officers at the end of their rating cycle.

    Response to Recommendation No. 2:


    o The Procurement Office provided a list of all FSN CTOs (both formal & informal), (Attachment
      d). The Procurement Office will provide updates of the list on a quarterly basis.

    o In sending requests for annual FSN Work Plans and Performance Evaluations to raters of CTOs, HR
      FSN will emphasize that the CTO responsibility must be documented for each and will review
      completed reports to ensure the same, (Attachment e – two sample requests). Starting August 2003
      (following receipt of the CTO list from the Procurement Office), HR FSN has sent 11 requests for
      Work Plans and nine requests for Performance Evaluations to raters of CTOs, which included a
      statement emphasizing the importance of documenting the CTO responsibility. We have also
      received three completed Performance Evaluations and ensured that they document the CTO
      responsibility, (Due to the confidentiality nature of these reports, they are available in MGT/HR
      for review).

        Transmitting requests to raters of ALL FSN CTOs will span over almost a year due to the fact that
        the rating cycle dates for FSNs is not currently set on a fixed date every year (they vary because they
        are primarily based on employees' anniversaries in current positions). Attached is a list of the current
        rating cycle dates for work plans and performance evaluations for FSN CTOs, (Attachment f).

o       MGT/EXO office will report to the Front Office the names of rating officials who become more tha n
        two months late in submitting Work Plans and/or Performance Evaluation Reports for the FSN CTOs
        they supervise.

      In view of the above, the Mission believes that final action has been taken and requests
    RIG/Cairo to close Recommendation Nos. 1 and 2 under the subject audit.


    Atts: a/s

    CC:
    OD/SCS, R. Harber
    OD/FM, H. Jamshed
    A/OD/LEG, M. Smith



                                                                                                             18
OD/PROC, C. Bennett
A/AD/EG, R. Vanhorn
AD/EI, A. Vance
AD/HDD, J. Nandy
File




                      19
